No. 20-303

IN THE
_________
UNITED STATES OF AMERICA
Petitioner,
v.
JOSE LUIS VAELLO-MADERO
Respondent.
_________
ON WRIT OF CERTIORARI TO THE UNITED STATES
COURT OF APPEALS FOR THE FIRST CIRCUIT

_________

BRIEF OF LEAGUE OF UNITED LATIN
AMERICAN CITIZENS AS AMICUS CURIAE IN
SUPPORT OF RESPONDENT
PAUL KOSTER
Counsel of Record
EMORY LAW SCHOOL
SUPREME COURT
ADVOCACY PROGRAM
1301 Clifton Road
Atlanta, GA 30322
(404) 727-3957
Paul.Koster@emory.edu

1
INTERESTS OF AMICUS CURIAE 1
League of United Latin American Citizens
(“LULAC”) is a nonprofit organization dedicated to
advancing the political influence and civil rights of
Hispanic Americans. LULAC involves and serves all
Hispanic nationality groups and has approximately
132,000 members throughout the United States,
including many in the U.S. Territory of Puerto Rico.
LULAC has an interest in this case because of its
impact on residents of Puerto Rico, as well as other
U.S. territories. Denying full federal benefits to
residents of Puerto Rico and other U.S. Territories and
the discriminatory rationale undergirding the basis
for any such denial directly harm both members of
LULAC and the communities it serves.

Pursuant to Sup. Ct. R. 37.6, amicus curiae affirms that no
counsel for a party has written this brief in whole or in part, and
that no person or entity, other than amicus curiae, its members,
or its counsel, has made a monetary contribution to the
preparation or submission of this brief. Pursuant to Sup. Ct. R.
37.3, petitioner and respondent have provided blanket consent to
the filing of amicus briefs in this case.

1

2
SUMMARY OF THE ARGUMENT
The cases cited by petitioner in support of their
position, Califano v. Torres and Harris v. Rosario,
discuss the degree of scrutiny due to differential
treatment of citizens of Puerto Rico. However, the
petitioner does not meaningfully engage with the
racism and xenophobia undergirding the cases it cites.
From the moment Puerto Rico was acquired by the
United States, Congress and the President relied upon
racism and xenophobia to deny the people of Puerto
Rico equal rights. These racist and xenophobic beliefs
were codified by statute and through the Insular
Cases, the laws that now form the basis for permitting
Congress to discriminate against Puerto Rico.
Accordingly, the Insular Cases must be decisively
overturned and soundly rejected.
ARGUMENT
I.

The Unequal Application of Rights
and Benefits to U.S. Citizens in
Puerto Rico Is Premised on Racism
and Xenophobia

Petitioner asks this Court to reverse the First
Circuit’s holding that, in refusing to extend SSI
benefits to the people of Puerto Rico, Congress has
violated the U.S. Constitution. Pet’r Br. at 9. In
support of its position, Petitioner cites the cases
Califano v. Torres and Harris v. Rosario, which
according to the petitioner “establish that Puerto
Rico’s unique tax status provides a rational basis for

3
excluding it from programs such as SSI.” Petitioner,
however, avoids meaningfully engaging with the
historical basis for its contention that Puerto Rico
should be treated differently. As further elaborated
below, that historical basis is premised on racism and
xenophobia. This case presents this Court the
opportunity to decisively reject this longstanding
injustice, and the First Circuit’s decision must be
affirmed.
Each branch of government has historically
authorized, sanctioned, and condoned the unequal
treatment of the people of Puerto Rico through actions
premised on racism and xenophobia. In the wake of
Puerto Rico’s acquisition by the United States from
Spain in 1898, Congress immediately began debating
the degree to which the people of Puerto Rico were
entitled to the full rights of U.S. citizenship. Juan R.
Torruella, The Insular Cases: The Establishment of a
Regime of Political Apartheid, 29 U. PA. J. INT’L L. 283,
287 (2007). Such justifications were cemented in a
series of Supreme Court decisions called the “Insular
Cases,” which held that constitutional rights only
sometimes apply to the people of Puerto Rico.
In particular, Congress passed the Foraker Act of
1900, which established a colonial government for
Puerto Rico but did not provide for U.S. citizenship,
shortly after the United States acquired Puerto Rico.
Id. at 299. Specifically, the Foraker Act granted the
U.S. government plenary powers over Puerto Rico,
which allowed the President to appoint the governor
of Puerto Rico, the governor’s cabinet, and the justices

4
of the Supreme Court of Puerto Rico. Juan R.
Torruella, Why Puerto Rico Does Not Need Further
Experimentation With its Future: A Reply to the
Notion of “Territorial Federalism,” 131, HARV. L. REV.
67, 70 (2018) [hereinafter Torruella, Territorial
Federalism].
The legislative history of the Foraker Act lays plain
the determining attitude behind the Act; on the
Senate floor, senators expressed doubts in extending
U.S. citizenship to “the alien races, and civilized, semicivilized, barbarous, and savage peoples of these
islands.” José A. Cabranes, Citizenship and the
American Empire: Notes on the Legislative History of
the United States Citizenship of Puerto Ricans, 127 U.
PA. L. REV. 391, 432–33 (1978) (quoting 33 Cong. Rec.
3622 (1900) (remarks of Sen. Depew)). Racism and
xenophobia similarly guided Congress’s beliefs that
the people of Puerto Rico were incapable of selfgovernance and that Puerto Rico was better suited as
a colonial possession of the United States rather than
a State to be admitted to the Union. Id. at 432.
In Downes v. Bidwell, one of the Insular Cases, this
Court adopted Congress’s view of Puerto Rico as a
territory without a path to statehood, stating Puerto
Rico should be thought of as “appurtenant and
belonging to the United States, but not a part of the
United States.” 182 U.S. 244, 287 (1901). The Court’s
reasoning was derived from the fear that children born
in Puerto Rico, “whether savages or civilized,” might
be “entitled to all the rights, privileges and
immunities of citizens” by birth. Id. at 279. A

5
concurring opinion of this Court stated that if
territories inhabited by people of “uncivilized” and
“alien races” were allowed to be incorporated into the
Union in this way, it could “inflict grave detriment to
the United States” and result in the “bestowal of
citizenship on those absolutely unfit to receive it[.]” Id.
at 306, 313, 319 (White, J., concurring).
Racism and xenophobia against the people of
Puerto Rico by the U.S. government continued to
manifest itself when the lower legislative House of
Delegates, the only branch popularly elected by the
people of Puerto Rico, refused to authorize an
appropriations bill. Torruella, Territorial Federalism,
supra at 72. In response, President Taft stated “that
Puerto Ricans had forgotten the generosity of the
United States toward them, ‘something to be expected
of the people with such little education.’” Id. (quoting
William Howard Taft, President, Message to Congress
(May 10, 1909), in 3 THE COLLECTED WORKS OF
WILLIAM HOWARD TAFT 96 (David Burton ed., 2002)).
He further asserted the United States had “gone too
far” in granting political rights to the people of Puerto
Rico and the people of Puerto Rico had shown “too
much irresponsibility in the enjoyment of this right.”
Id.
In 1917, the Jones Act was signed into law by
President Wilson and superseded the Foraker Act in
granting U.S. citizenship to the people of Puerto Rico,
along with limited additional sovereignty. Id. at 73.
However, all significant government figures were still

6
to be appointed by the U.S. president, perpetuating
Puerto Rico’s colonial status. Id.
Following the passage of the Jones Act, this Court,
in Balzac v. Porto Rico, questioned the ability of the
people of Puerto Rico to adopt aspects of the U.S.
government:
The jury system postulates a conscious
duty of participation in the machinery of
justice which it is hard for people not
brought up in fundamentally popular
government at once to acquire. . . . .
Congress has thought that a people like
the Filipinos or the Porto Ricans [sic],
trained to a complete judicial system
which knows no juries, living in compact
and ancient communities, with definitely
formed
customs
and
political
conceptions,
should
be
permitted
themselves to determine how far they
wish to adopt this institution of AngloSaxon origin.
258 U.S. 298, 310 (1922). The Court then went on to
explicitly hold the people of Puerto Rico are not
entitled to the full extension of constitutional rights.
See id. at 311. As such, this Court relegated the people
of Puerto Rico to second-class citizenship. Such a
position has no basis in the U.S. Constitution and
reflects instead the use of racism and xenophobia to
deny people fundamental rights.

7
The historical actions described above make clear
the unequal application of rights and benefits to U.S.
citizens in Puerto Rico is premised on racism and
xenophobia. This case presents this Court the
opportunity to decisively reject this longstanding
injustice.
CONCLUSION
Amicus curiae respectfully requests this Honorable
Court to affirm the decision of the United States Court
of Appeals for the First Circuit.
Respectfully Submitted,
PAUL KOSTER
Counsel of Record
EMORY LAW SCHOOL SUPREME
COURT ADVOCACY PROGRAM
1301 Clifton Road
Atlanta, GA 30322
(404) 727-3957
Paul.Koster@emory.edu
Counsel for Amicus Curiae

